           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      UNDERPAYMENTS ON PRIOR
   SUPPLEMENTAL SECURITY INCOME
             RECORDS

      August 2007   A-07-07-17034




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      August 31, 2007                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Underpayments on Prior Supplemental Security Income Records (A-07-07-17034)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           internal controls were adequate to ensure that underpayments on prior Supplemental
           Security Income (SSI) records were identified and properly resolved.

           BACKGROUND

           In 1972, Congress enacted the SSI program under Title XVI of the Social Security Act. 1
           The SSI program provides a minimum level of income to financially needy individuals
                                                   2
           who are aged, blind, and/or disabled. The means-tested nature of the SSI program
           requires that individuals’ needs be matched with their financial circumstances on a
           monthly basis for purposes of determining benefit eligibility and payment amounts.
           Individual financial circumstances may change often, requiring SSA to frequently
           reassess and verify recipients’ eligibility and payment amounts.

           The majority of SSI underpayments occur because of changes in recipients’ non-
           medical eligibility factors such as income (earned or unearned) or living arrangements.
           As changes in these factors occur, recipients’ SSI eligibility and payment amounts can
           change from month-to-month. An underpayment occurs when the amount due to a
           recipient is greater than the amount paid to a recipient during a period of eligibility. In
           general, an underpayment should be paid to the recipient the month after it is
           discovered by SSA. 3 Underpayment amounts should first be offset to any existing




           1
               The Social Security Act § 1601, 42 U.S.C. 1381; see also 20 C.F.R. § 416.101.
           2
               20 C.F.R. § 416.110.
           3
               20 C.F.R. § 416.538; see also SSA, POMS, SI 02101.002 – SSI Underpayments Due – Individual Alive.
Page 2 - The Commissioner

overpayments, even if the recipient is deceased. 4 If no overpayments exist, and the
recipient is alive, the underpayment should be paid. If the recipient is deceased, the
underpayment can be paid to a spouse or parent if the deceased recipient was living
with the spouse or parent at the time of death or within the 6 months immediately
                                5
preceding the month of death.

When a claimant files for SSI, a supplemental security income record (SSR) is created.
The SSR typically remains open as long as the claimant is in current pay status and for
up to 12 months when in nonpayment status. SSA terminates SSRs for a variety of
reasons such as after the recipient has been ineligible to receive payments for over
12 months or when changes in the recipient’s eligibility factors require a new SSR to be
established. 6 These terminated SSRs are considered current until a new SSR is
established. Once a new SSR is established, the terminated SSR is considered a prior
SSR.

SSA instructions state that underpayments on terminated SSRs must be manually
                                                                              7
controlled by field office (FO) staff to ensure all past due amounts are paid. This
means FO staff must manually review prior SSRs to determine if underpayments exist
and then take appropriate actions to resolve the underpayments. Accordingly,
underpayments will remain on prior SSRs until identified by SSA FO staff.

Our review focused on prior SSRs containing underpayments that were terminated
using T31 and T33 codes. 8 Through data analysis, we identified a population of
90,497 prior SSRs with underpayments between $250 and $24,999 totaling
$120.4 million. We identified an additional 117 SSRs with underpayments of




4
    20 C.F.R. § 416.543.
5
    20 C.F.R. § 416.542.
6
 SSI recipients can have multiple SSRs. A current SSR is the latest SSR established for a recipient. All
other SSRs are considered prior SSRs.
7
    SSA, POMS, SI 02101.020 – Installment Payments of Large Past-Due Benefits – Individual Alive.
8
  SSA uses several codes to terminate SSRs. We focused our review on the T31 and T33 codes because
88 percent of the prior SSRs with underpayments identified in our data analysis were terminated with
these codes. The T31 code is used by the system to terminate SSRs when the SSR has been in
nonpayment status for 12 consecutive months and payments were made on the SSR (see SSA, POMS
SM 01601.805 – Payment Status Codes in Computation History – LIST and SM 01801.305 – Criteria for
Terminating Active Master Records). The T33 code is used to manually terminate SSRs when the SSI
system cannot accurately compute a payment or maintain the SSR because of changes in the claimant’s
living arrangements and/or other eligibility factors (see SSA, POMS SM 01601.805 – Payment Status
Codes in Computation History – LIST and SM 01801.001 – Terminations and History Processing -
General).
Page 3 - The Commissioner

$25,000 and greater totaling $4.3 million. 9 The following table shows the number of
SSRs and total underpayment amounts included in our review by dollar range.

                                  Underpayments 1990-2006 by Range
                                        Total
             Number of SSRs         Underpayments          From                     To
                       30,007             $11,176,523         $250.00                 $499.99
                       30,338             $20,989,084         $500.00                 $999.99
                       25,977             $52,018,648       $1,000.00               $4,999.99
                        3,113             $21,212,722       $5,000.00               $9,999.99
                        1,062             $15,048,544      $10,000.00              $24,999.99
            Total      90,497            $120,445,521         $250.00              $24,999.99

                            Underpayments 1990-2006 - $25,000 and Greater
             Total          117           $4,346,168       $25,000.00             and greater

We reviewed a random sample of 250 SSRs that contained underpayments between
$250 and $24,999. In addition, we reviewed a random sample of 33 SSRs with
underpayments $25,000 and greater. See Appendix B for the scope and methodology
of our review and Appendix C for our population and sample results.

RESULTS OF REVIEW
We found SSA’s internal control of relying on FO staff to manually identify and resolve
SSI underpayments on prior SSRs is not adequate. The control is not adequate
because FO staff did not always perform the necessary actions to identify and resolve
the underpayments. Specifically, for our population of 90,497 prior SSRs that
contained underpayments between $250 and $24,999 totaling $120.4 million, we
project:

      •   79.3 percent of prior SSRs have underpayments totaling $92.3 million that
          should have been paid to recipients or offset to existing overpayments, and

      •   23.1 percent of prior SSRs have underpayments totaling $27.9 million that are
          not due to the recipients and need to be removed from the prior SSRs to avoid
          improper payments or improper offsets to recipients’ overpayments. 10




9
    All of the SSRs included in our review were terminated between 1990 and 2006 using T31 or T33 codes.
10
  The total percentage of SSRs (79.3 percent plus 23.1 percent) is greater than 100 percent because
some SSRs had underpayment amounts that should have been released or offset to existing
overpayments and underpayment amounts that are not due to the recipient.
Page 4 - The Commissioner

We found that similar conditions existed for SSRs with underpayments of $25,000 and
greater. Specifically, we identified 117 prior SSRs with underpayments totaling
$4.3 million. We reviewed 33 of these SSRs with underpayments totaling $1.3 million
and found that approximately:

     •   $1.1 million in underpayments remain on prior SSRs that are not due to the
         recipients and need to be removed from the prior SSRs to avoid improper
         payments or improper offsets to recipients’ overpayments, and

     •   $196,000 in underpayments should have been paid to recipients or offset to
         existing overpayments.

In addition, we identified $45.1 million in underpayments on current SSRs. A current
                                                 11
SSR is the latest SSR created for a recipient. We did not audit the underpayments on
the current SSRs since our review focused only on prior SSRs. However, based on the
results of our review of prior SSRs, it is highly probable that the current SSRs also
contain underpayments that need to be resolved by SSA.

UNDERPAYMENTS BETWEEN $250 AND $24,999 ON PRIOR SSRs

We reviewed a random sample of 250 prior SSRs that contained underpayments
                               12
between $250 and $24,999. Based on our review, we project that 79.3 percent of
prior SSRs have underpayments totaling $92.3 million that should have been paid to
recipients or offset to recipients’ existing overpayments. In addition, 23.1 percent of
prior SSRs have underpayments totaling $27.9 million that are not due to the recipients
and need to be removed from the prior SSRs to avoid improper payments or improper
offsets to recipients’ existing overpayments.

UNDERPAYMENTS TOTALING $92.3 MILLION SHOULD HAVE BEEN PAID TO
RECIPIENTS OR OFFSET TO EXISTING OVERPAYMENTS

Based on our analysis of sampled SSRs, we project that 79.3 percent of prior SSRs
have underpayments totaling $92.3 million that should have been paid to recipients or
offset to recipients’ existing overpayments. Of these underpayment amounts, we
project:




11
  For these SSRs, no subsequent SSRs were established after the SSRs were terminated. Therefore,
these SSRs are not considered prior SSRs but rather, current SSRs.
12
   SSA reviewed 232 of the 250 sample SSRs and generally agreed with our analysis of the
underpayments. We included the results of SSA’s review in this report as appropriate. We did not
provide SSA with the remaining 18 SSRs in our sample because the underpayments on these SSRs had
already been paid to the recipients or offset to overpayments on subsequent SSRs.
Page 5 - The Commissioner

      •   $73.9 million should be paid to recipients.

      •   $14.3 million could be offset to existing overpayments.

      •   $4.1 million cannot be paid because the recipients are deceased and had no
          spouses or parents to whom the underpayments could be paid.

Given that 79.3 percent of the prior SSRs had underpayments that should have been
either paid to recipients or offset to existing overpayments, SSA’s internal control of
relying on FO staff to manually identify and resolve underpayments is not adequate. In
fact, the results of our review indicate that FO staff did not review prior SSRs for
outstanding underpayment amounts when establishing new SSRs. Or, if the FO staff
did review the prior SSRs they did not take the necessary actions to properly resolve
the underpayments. As a result, the underpayments remained on the prior SSRs.

SSA needs a better internal control for identifying and resolving underpayments on prior
SSRs. The optimum control would be systems-related. For example, SSA’s current
system cannot automatically transfer underpayments from prior SSRs to subsequent
SSRs. If SSA’s system could automatically transfer underpayments from a prior SSR
to a current SSR, the underpayments could be more easily identified by FO staff and
resolved. Another improved internal control would be a system process that
electronically alerts FO staff that underpayments exist on prior SSRs. Such an alert
would help alleviate the current problems associated with relying on FO staff to
manually identify underpayments on prior SSRs.

During our review, we found that some of the projected $92.3 million classified as
underpayments that should have been paid to recipients or offset to existing
overpayments may have been created in error and were not actually due to recipients. 13

However, because of administrative finality rules, SSA may have to pay the
underpayments to the recipients. 14 Specifically, if SSA does not identify and correct an
underpayment that was created in error within the 2-year administrative finality period, it




13
     We did not quantify the amount of the $92.3 million that may have been created in error.
14
  Administrative finality is the concept that decisions of eligibility to receive payments and payment
amounts become final and binding on both parties immediately, unless they are timely appealed or later
reopened and revised for special reasons. See SSA, POMS, SI 04070.005 - Title XVI Administrative
Finality Definitions.
Page 6 - The Commissioner

may have to pay the underpayments to the recipients. 15 Therefore, it is very important
that SSA verify the accuracy of an underpayment on prior SSRs within 2 years of the
date the underpayment was created.

However, we found that SSA is not verifying the accuracy of underpayments on prior
SSRs within 2 years of the date the underpayment was created. Specifically, of the
250 sampled prior SSRs we reviewed, 186 SSRs contained underpayments that were
beyond the 2-year administrative finality period. Therefore, even if some of these
underpayments were created in error and were actually not due to the recipients, SSA
                                                           16
may still have to pay the underpayments to the recipients.

UNDERPAYMENTS TOTALING $27.9 MILLION ARE NOT DUE TO RECIPIENTS
AND SHOULD BE REMOVED FROM PRIOR SSRS

Based on our analysis of sampled SSRs, we project that 23.1 percent of prior SSRs
have underpayments totaling $27.9 million that are not due to the recipients. Of these
underpayment amounts we project that:

      •   $14.5 million in underpayments appear to have been created in error and are not
          due to the recipients. Underpayments that are in error occur because of clerical
          mistakes, omission of evidence, and a variety of other reasons. These
          underpayments need to be removed from the prior SSRs to avoid potential
          improper payments or improper offsets to existing overpayments. 17




15
  Pursuant to SSA policy, Administrative Finality Rules do not apply to the payment of underpayments to
recipients. In fact, underpayments should be paid to the recipient or offset to existing overpayments
regardless of the amount of time that has elapsed between the date the underpayment occurred and the
date it was discovered by SSA. See SSA, POMS, SI 04070.070C – SSA Overpayment-Underpayment
Development. However, an underpayment created in error and not due to the recipient does not have to
be paid if good cause exits. Good cause exists to change an underpayment decision if new and material
evidence is furnished; a clerical error has been made; or there is an error on the face of the evidence.
See SSA, POMS, SI 04070.010 – Title XVI Administrative Finality – General Reopening Policies.
16
     Supra notes 14, 15.
17
  The SSRs containing these underpayments appeared to have good cause to correct the underpayment
amounts. Therefore, the underpayments are not subject to the administrative finality rules discussed in
the previous section of this report.
Page 7 - The Commissioner

     •   $13.4 million in underpayments was paid to recipients or manually offset to
         overpayments but the underpayments were not removed from the prior SSRs.
         These underpayments need to be removed from the prior SSRs to avoid
                                                                         18
         improper payments or improper offsets to existing overpayments.

As previously discussed in this report, SSA’s internal control of relying on FO staff to
manually identify and resolve underpayments is not adequate. Given that 23.1 percent
of the prior SSRs in our sample contain underpayments that are not due to recipients
indicates that FO staff did not review prior SSRs for outstanding underpayment
amounts when establishing new SSRs. Or, if the FO staff did review the prior SSRs
they did not take the necessary actions to properly resolve the underpayments. As a
result, the underpayments remained on the prior SSRs.

SSI UNDERPAYMENTS $25,000 AND GREATER

We identified 117 SSRs with underpayments $25,000 and greater totaling $4.3 million.
We reviewed 33 of these SSRs with underpayments totaling $1.3 million and found
      19
that:

     •   Approximately $1.1 million, or 84 percent, of the underpayments were not due to
         the recipients. Specifically,

             $626,000 of the underpayment amounts appear to have been created in
              error and are not due to the recipients. These underpayments need to be
              removed from the prior SSRs to avoid potential improper payments or
              improper offsets to existing overpayments.

             $450,000 of the underpayment amounts was paid to the recipients but the
              underpayment amounts were not removed from the prior SSRs. These
              underpayments need to be removed from the prior SSRs to avoid
              improper payments or improper offsets to existing overpayments.

     •   Approximately $196,000, or 15 percent, of the underpayments should have been
         paid to recipients or offset to existing overpayments. Specifically,

             $169,000 of the underpayment amounts could be paid or offset to existing
              overpayments; and
18
    We found an instance where the FO paid an underpayment on a subsequent SSR. However, during
our audit, the FO paid the underpayment again on the prior SSR that contained the underpayment. The
system did not recognize the duplicate payment and no overpayment was recorded. SSA was not aware
of this improper payment until we brought it to the FO’s attention during our audit. This provides further
illustration of the need for better internal controls.
19
  SSA reviewed all 33 of the sample SSRs and generally agreed with our analysis of the underpayments.
Based on its review of these SSRs, SSA is taking corrective action to resolve the identified
underpayments. We included the results of SSA’s SSR review in this report as appropriate. At its
request, we provided a list of all 117 SSRs to SSA.
Page 8 - The Commissioner

             $27,000 cannot be paid because the recipient is deceased and had no
              spouse or parent to whom the underpayment could be paid.

     •   Approximately $13,000, or 1 percent, of the underpayments was paid correctly
         on the prior SSRs.

As previously discussed, SSA relies on FO staff to identify underpayments on prior
SSRs and ensure underpayments are resolved. However, this control is not working
because FO staff did not always perform the necessary actions to identify and resolve
the underpayments.

CURRENT SSRs TERMINATED WITH OUTSTANDING UNDERPAYMENTS

We identified $45.1 million in underpayments on 43,702 current SSRs. A current SSR
is the latest SSR created for a recipient. 20 We did not audit the underpayments on the
current SSRs since our review focused on prior SSRs. However, based on the results
of our review of prior SSRs, it is highly probable that the current SSRs also contain
underpayments that should be resolved by SSA.

CONCLUSION AND RECOMMENDATIONS

We found SSA’s internal control of relying on FO staff to manually identify SSI
underpayments on prior SSRs is not adequate to ensure that underpayments are
identified and properly resolved. The controls are not adequate because FO staff did
not always perform the necessary actions to identify and resolve underpayments on
prior SSRs. We project that 79.3 percent of prior SSRs have underpayments totaling
$92.3 million that should have been paid to recipients or offset to existing
overpayments. Another projected 23.1 percent of prior SSRs have underpayments
totaling $27.9 million that should have been corrected but remain at risk of being
improperly paid to recipients or offset to existing overpayments.

We found similar internal control weaknesses exist for identifying and resolving the
underpayments of $25,000 or greater on prior SSRs totaling $4.3 million. Additionally,
$45.1 million in underpayments on current SSRs were identified and it is highly
probable that these SSRs also contain underpayments that should be resolved by SSA.
SSA needs a better internal control for identifying and resolving underpayments on prior
SSRs. The optimum control would be systems-related. For example, SSA’s current
system cannot automatically transfer underpayments from prior SSRs to subsequent
SSRs. If SSA’s system could automatically transfer underpayments from a prior SSR
to a current SSR, the underpayments could be more easily identified by FO staff and
resolved. A system process that electronically alerts FO staff that underpayments exist


20
  These SSRs were terminated 1990 or later with underpayments $250 and greater. For these SSRs, no
subsequent SSR was created after the SSR was terminated with the T31 or T33 code. Therefore, these
SSRs are not considered prior.
Page 9 - The Commissioner

on prior SSRs would also help alleviate the current problems associated with relying on
FO staff to manually identify underpayments on prior SSRs.

We recommend SSA:

   1. Implement a risk-based approach to review and resolve the prior and current
      SSRs with underpayments identified in this review.

   2. Periodically remind staff to review prior and current SSRs for outstanding
      underpayments when establishing new SSRs and conduct refresher training on
      the proper handling of underpayments on prior SSRs including the application of
      administrative finality rules.

   3. Implement system changes that ensure underpayments on prior and current
      SSRs are more easily identifiable by FO staff.

AGENCY COMMENTS

SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix D.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Population and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FO       Field Office
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Income Record
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our audit objectives we:

•   Reviewed sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures pertaining to
    Supplemental Security Income (SSI) underpayments.

•   Interviewed SSI specialists to obtain an understanding of how underpayments
    should be processed and recorded on the Supplemental Security Income Record
    (SSR).

•   Obtained a data file of prior SSRs containing underpayments.

        Selected a stratified random sample of 250 SSRs for T31 and T33 codes
         terminated 1990 or later with underpayment amounts between $250 and
         $24,999 from the above data file. See Appendix C for our population and
         sample results.
        Selected a random sample of 33 SSRs for T31 and T33 codes terminated
         1990 or later with underpayments $25,000 and greater.
        Reviewed the sampled SSRs to determine whether the underpayments were
         brought forward, paid to recipients, or offset against existing overpayments
         on subsequent SSRs.
        Provided sampled SSRs for SSA’s review and discussed sampled SSRs with
         SSA personnel to confirm our analysis of underpayment amounts.

•   Obtained a data file of current SSRs containing underpayments to determine the
    total amount and number of current SSRs terminated using the T31 and T33 codes.

We conducted our audit in Kansas City, Missouri and Baltimore, Maryland from January
2007 through April 2007. We determined that the data used for this audit was
sufficiently reliable to meet our audit objective. The organizational component that is
responsible for the SSI program is the Office of Income Security Programs under the
Office of Disability and Income Security Programs. We conducted our audit in
accordance with generally accepted government auditing standards.
                                                                                         Appendix C

Population and Sample Results
We identified a population of 90,497 prior Supplemental Security Income Records (SSR)
terminated 1990 or later with underpayments between $250 and $24,999 totaling
$120.4 million. Of these SSRs, 32,365 were terminated using the T31 code and
58,132 were terminated using the T33 code. Additionally, we identified 117 prior SSRs
with underpayments $25,000 or more totaling $4.3 million. Of these SSRs, 3 were
terminated using the T31 code and 114 were terminated using the T33 code.

Our analysis of 250 prior SSRs identified 203 SSRs, or 81 percent, with underpayments
totaling $244,241 that could have been paid or offset to existing overpayments before
the SSRs were terminated or when new SSRs were created for the Supplemental
Security Income recipients. Our analysis of the 250 SSRs also identified 52 SSRs, or
21 percent, with underpayments totaling $67,049 that are not due to recipients and
should be removed from the prior SSRs to avoid improper payment or offset to existing
                1
overpayments. The following tables reflect the sample results and projections based
on our audit. 2




1
  The total number of SSRs is greater than 250 because 6 SSRs had underpayment amounts in both
categories – part of the underpayment could have been paid or offset and part of the underpayment was
not due to the recipient and should have been removed from the SSR – and 1 underpayment was
correctly paid on the prior SSR after our population was pulled and is not included in our projections.
Initially, there were 11 SSRs with underpayment amounts in both categories. However, we eliminated five
of these SSRs because the amount in one of the categories was less than $20 which we considered
immaterial.
2
    All projections in the following tables were calculated at the 90-percent confidence level.


                                                       C-1
                 Table 1: Underpayments Could Have Been Paid or Offset
                                Population and Sample Size
                                           T31               T33             Total
Population size                                   32,365           58,132            90,497
Sample size                                         125              125               250
                                    Number of Cases
Cases Identified in Sample                          110               93               203
Projected Items in Population                     28,481           43,250            71,731
Lower Limit – Quantity                                                               67,680
Upper Limit – Quantity                                                               75,783
                                Associated Dollar Amounts
Amounts Identified in Sample                 $102,974         $141,267         $244,241
Point Estimate                            $26,662,070      $65,697,168       $92,359,238
Projection Lower Limit                                                       $76,427,158
Projection Upper Limit                                                      $108,291,317



           Table 2: Underpayments Should Be Removed From Prior SSRs
                                Population and Sample Size
                                           T31               T33             Total
Population size                                   32,365           58,132            90,497
Sample size                                         125              125               250
                                    Number of Cases
Cases Identified in Sample                           16               36                52
Projected Items in Population                      4,143           16,742            20,885
Lower Limit – Quantity                                                               16,686
Upper Limit – Quantity                                                               25,083
                                Associated Dollar Amounts
Amounts Identified in Sample                     $15,933       $51,116          $67,049
Point Estimate                              $4,125,274     $23,771,798       $27,897,072
Projection Lower Limit                                                       $17,414,112
Projection Upper Limit                                                       $38,380,031




                                           C-2
During our analysis of the sampled SSRs, we separated the two categories reported
above into sub-categories. For the 203 SSRs with underpayments totaling
$244,241 identified in Table 1, the underpayment amounts fell into at least 1of 3 sub-
categories: could be paid to recipients, could be offset to existing overpayments, or the
recipient is deceased and underpayment could no longer be paid. We found 144 SSRs
with underpayment amounts totaling $191,142 that could have been paid to recipients
(see Table 3), 54 SSRs with underpayment amounts totaling $37,631 that could be
offset to existing overpayments (see Table 4), and 21 SSRs with underpayment
amounts totaling $15,468 that can no longer be paid because the recipients are
                                              3
deceased and had no spouse (See Table 5). The following three tables reflect the
sample results and projections for these categories.

                             Table 3: Underpayments Could be Paid to Recipients
                                           Population and Sample Size
                                                      T31               T33            Total
           Population size                                   32,365           58,132           90,497
           Sample size                                         125              125              250
                                               Number of Cases
           Cases Identified in Sample                           74               70              144
           Projected Items in Population                     19,160           32,554           51,714
           Lower Limit – Quantity                                                              46,853
           Upper Limit – Quantity                                                              56,575
                                           Associated Dollar Amounts
           Amounts Identified in Sample                     $72,663      $118,479        $191,142
           Point Estimate                             $18,814,028     $55,099,407      $73,913,435
           Projection Lower Limit                                                      $57,784,088
           Projection Upper Limit                                                      $90,042,783




3
  Sixteen SSRs contained underpayment amounts that fit into two of the three sub-categories. For
example, part of the underpayment amount could be used to offset an existing overpayment and the
remainder could be paid to the recipient.


                                                      C-3
         Table 4: Underpayments Could be Offset to Existing Overpayments
                                Population and Sample Size
                                           T31               T33            Total
Population size                                   32,365           58,132           90,497
Sample size                                         125              125              250
                                    Number of Cases
Cases Identified in Sample                           22               32               54
Projected Items in Population                      5,696           14,882           20,578
Lower Limit – Quantity                                                              16,417
Upper Limit – Quantity                                                              24,739
                                Associated Dollar Amounts
Amounts Identified in Sample                     $15,417       $22,214         $37,631
Point Estimate                              $3,991,754     $10,330,633      $14,322,387
Projection Lower Limit                                                      $10,382,849
Projection Upper Limit                                                      $18,261,926



     Table 5: Underpayments Could No Longer Be Paid – Recipients Deceased
                                Population and Sample Size
                                           T31               T33            Total
Population size                                   32,365           58,132           90,497
Sample size                                         125              125              250
                                    Number of Cases
Cases Identified in Sample                           20                1               21
Projected Items in Population                      5,178             465             5,643
Lower Limit – Quantity                                                               3,735
Upper Limit – Quantity                                                               7,552
                                Associated Dollar Amounts
Amounts Identified in Sample                     $14,894            $574       $15,468
Point Estimate                              $3,856,287        $267,128       $4,123,415
Projection Lower Limit                                                       $2,239,958
Projection Upper Limit                                                       $6,006,873




                                           C-4
For the 52 SSRs with underpayments that were not due to the recipients and should
have been removed from the prior SSRs totaling $67,049 identified in Table 2, the
underpayment amounts fell into at least 1of 2 sub-categories: underpayment appeared
to have been created in error or underpayment was paid to recipient or manually offset
to an existing overpayment on a subsequent SSR. In both cases the outstanding
underpayments are no longer due to the recipients but could still be improperly paid or
offset to an existing overpayment. We found 27 SSRs with underpayment amounts
totaling $36,455 that appeared to have been created in error (see Table 6) and
26 SSRs with underpayment amounts totaling $30,594 that were paid or offset on a
                                                                            4
subsequent SSR but were not removed from the prior SSR (see Table 7). The
following two tables reflect the sample results and projections for these categories.

                                    Table 6: Underpayments Created in Error
                                           Population and Sample Size
                                                      T31               T33            Total
           Population size                                   32,365           58,132           90,497
           Sample size                                         125              125              250
                                               Number of Cases
           Cases Identified in Sample                           10               17               27
           Projected Items in Population                      2,589            7,906           10,495
           Lower Limit – Quantity                                                               7,283
           Upper Limit – Quantity                                                              13,708
                                           Associated Dollar Amounts
           Amounts Identified in Sample                     $11,969       $24,486         $36,455
           Point Estimate                              $3,098,954     $11,387,431      $14,486,385
           Projection Lower Limit                                                       $6,390,485
           Projection Upper Limit                                                      $22,582,285




4
 One SSR contained underpayment amounts that fit into both sub-categories. Part of the underpayment
amount was paid on a subsequent SSR and the remainder was created in error.


                                                      C-5
          Table 7: Underpayments Paid to Recipients or Offset to Existing Overpayment on
                                         Subsequent SSR
                                         Population and Sample Size
                                                    T31                T33            Total
         Population size                                  32,365             58,132           90,497
         Sample size                                        125                125              250
                                             Number of Cases
         Cases Identified in Sample                            6                20               26
         Projected Items in Population                     1,554              9,301           10,855
         Lower Limit – Quantity                                                                7,549
         Upper Limit – Quantity                                                               14,161
                                         Associated Dollar Amounts
         Amounts Identified in Sample                     $3,964         $26,630         $30,594
         Point Estimate                              $1,026,320       $12,384,367     $13,410,687
         Projection Lower Limit                                                        $6,350,116
         Projection Upper Limit                                                       $20,471,258


We reviewed a random sample of 33 of the 117 SSRs with underpayments
$25,000 and greater. We reviewed the 3 SSRs terminated using the T31 code and
30 randomly selected SSRs terminated using the T33 code with underpayments totaling
$1.3 million. We reported our actual results and made no projections relating to these
SSRs.




                                                    C-6
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 22, 2007                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye      /s/


Subject:   Office of the Inspector General (OIG) Draft Report, “Underpayments on Prior Supplemental
           Security Income Records” (A-07-07-17034)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “UNDERPAYMENTS ON PRIOR SUPPLEMENTAL SECURITY INCOME
RECORDS” (A-07-07-17034)

Thank you for the opportunity to review and provide comments on this draft report. We
considered implementation of an automated system to bring forward underpayments from prior
terminated Supplemental Security Income Records (SSR) at the time we implemented the
Terminated Record Balancing and Debt Transfer (TREBDET) system in June 1999.

The TREBDET system was created to bring overpayment information from past SSRs to current
SSRs. This system was designed as part of our effort to reduce debt and address some of the
“high risk” aspects of the Supplemental Security Income (SSI) program. While consideration
was given to automating underpayment reconciliation on prior SSI records, our resources were
limited and the creation of the reconciliation process for overpayments was considered a greater
priority. Additionally, after further analysis, we determined that an automated process for
bringing forward underpayments onto current SSRs is error prone.

Our comments on the draft recommendations are as follows.

Recommendation 1

Implement a risk-based approach to review and resolve the prior and current SSRs with
underpayments identified in this review.

Comment

We agree. We define “risk-based” as those underpayments most likely to result in the largest
improper payments. We have already reviewed and resolved all 117 prior terminated records
with underpayments over $25,000 that were identified during the review. The resolution of the
remaining underpayments on prior terminated SSR records will be addressed as our resources
permit.

Recommendation 2

Periodically remind staff to review prior and current SSRs for outstanding underpayments when
establishing new SSRs and conduct refresher training on the proper handling of underpayments
on prior SSRs including the application of administrative finality rules.

Comment

We agree. We will issue a reminder to the field offices and conduct refresher training by the end
of December 2007. The refresher training will include topics such as the review of current SSRs
and underpayments on prior SSRs including the application of administrative finality rules.




                                               D-2
Recommendation 3

Implement system changes that ensure underpayments on prior and current SSRs are more easily
identifiable by field office staff.

Comment

We agree, although we do not currently have the resources available to implement this
recommendation. However, we believe the refresher training mentioned in our response to
recommendation 2 will assist field office staff in further identifying outstanding underpayments.




                                               D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Ron Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Deb Taylor, Auditor-in-Charge

   Karis Crane, Auditor

   Nick Moore, Auditor

   Ken Bennett, IT Specialist


For additional copies of this report, please visit out web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-07-17034.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
